TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Challenges Remain to Balance
                           Revenue Officer Staffing With
                          Attrition and Workload Demands



                                            May 6, 2011

                              Reference Number: 2011-30-039




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


CHALLENGES REMAIN TO BALANCE                        will barely cover attrition losses. Meanwhile, the
REVENUE OFFICER STAFFING WITH                       percentage of delinquent accounts closed has
ATTRITION AND WORKLOAD DEMANDS                      steadily decreased because of increasing
                                                    inventory.
                                                    A key element of effective workforce planning is
Highlights                                          determining the size of the workforce needed to
                                                    meet organizational goals and identifying gaps
Final Report issued on May 6, 2011                  between current and future workforce needs.
                                                    However, when estimating staffing levels of
Highlights of Reference Number: 2011-30-039         ROs, the IRS does not determine the number
to the Internal Revenue Service Commissioner        needed to address the available workload.
for the Small Business/Self-Employed Division.      Instead, the RO staffing level is estimated based
                                                    primarily on a budget figure. The IRS believes
IMPACT ON TAXPAYERS                                 there is more than enough inventory to justify
Revenue officers (RO) comprise one of the core      staffing increases. However, the IRS does not
competencies of the Internal Revenue Service        know when hiring additional ROs will no longer
(IRS) and have a direct impact on its ability to    be effective.
meet its mission by collecting the correct amount   The IRS’s Fiscal Year 2009 budget justification
of tax due. The Small Business/Self-Employed        projected the RO hiring initiative would allow
(SB/SE) Division added 1,515 new ROs during a       88,000 additional delinquent account closures,
nine-month period, but still faces challenges to    resulting in $333.6 million additional revenue in
keep pace with attrition and workload. If the IRS   Fiscal Year 2011. However, the IRS does not
does not have a sufficient number of qualified      compare actual results to the original
ROs to collect delinquent taxes, it could create    projections, as would be consistent with
an unfair burden on the majority of taxpayers       guidance from the Office of Management and
who fully pay their taxes on time.                  Budget. As a result, it is unknown if the IRS
WHY TIGTA DID THE AUDIT                             realized all or part of the additional revenue, and
                                                    the IRS lost an opportunity to collect information
This audit was initiated to determine whether the   that could help improve future budgets.
SB/SE Division effectively implemented the RO
hiring initiative. The audit was included in our    WHAT TIGTA RECOMMENDED
Fiscal Year 2010 Annual Audit Plan and              TIGTA recommended that the Director,
addresses the major management challenge of         Enterprise Collection Strategy, SB/SE Division,
Human Capital.                                      establish rules for optimizing staffing levels for
WHAT TIGTA FOUND                                    ROs to address Collection’s potentially
                                                    collectible inventory and the Director,
The SB/SE Division RO hiring initiative added       Collection, SB/SE Division, develop methods to
1,515 new ROs throughout the country between        track actual results with projected benefits in
June 2009 and February 2010. The                    future budget justifications.
methodology to assign the new ROs effectively
placed them in the Collection areas with the        The IRS agreed with our recommendations and
greatest need. In addition, the ROs were            plans to review Collection workload and
assigned adequate work, and the field offices       resource levels to improve future resource
were prepared with office space and equipment.      allocation and staffing decisions. IRS officials
                                                    also stated they initiated efforts last year to
However, the IRS faces challenges to maintain       determine actual revenue collected from
the number of ROs due to attrition and an           specific enforcement initiatives proposed in
increasing inventory. Although 1,515 ROs were       Fiscal Year 2009. However, this information
hired over a nine-month period, the net increase    was not shared with TIGTA during the review.
was only 580 ROs. Also, the IRS estimates           As a result, TIGTA did not assess whether
planned hiring in Fiscal Years 2011 and 2012        these efforts address the recommendation.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 May 6, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Challenges Remain to Balance Revenue Officer
                                 Staffing With Attrition and Workload Demands (Audit # 201030015)

 This report presents the results of our review to determine whether the Collection function, Small
 Business/Self-Employed Division, effectively implemented the Fiscal Years 2009 and 2010
 revenue officer1 hiring initiative. The review was conducted as part of our Fiscal Year 2010
 Annual Audit Plan and addresses the major management challenge of Human Capital.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




 1
     See Appendix V for a glossary of terms.
                                    Challenges Remain to Balance Revenue Officer
                                    Staffing With Attrition and Workload Demands




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2
          The Revenue Officer Hiring Initiative Was Effectively Implemented ......... Page 2
          Challenges Remain for Staffing to Keep Pace With Attrition
          and Workload ................................................................................................ Page 4
                    Recommendation 1:.......................................................... Page 7

          Budget Justification Performance Goals Are Not Tracked
          to Actual Performance Results...................................................................... Page 7
                    Recommendation 2:.......................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology…..…………...Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – States Within Each Collection Area .................................... Page 14
          Appendix V – Glossary of Terms ................................................................. Page 15
          Appendix VI – Management’s Response to the Draft Report ...................... Page 18
        Challenges Remain to Balance Revenue Officer
        Staffing With Attrition and Workload Demands




                Abbreviations

CFf       Collection Field Function
FY        Fiscal Year
GAO       Government Accountability Office
IRS       Internal Revenue Service
OJT       On-the-Job Training
RO        Revenue Officer
SB/SE     Small Business/Self-Employed
TDA       Taxpayer Delinquent Account
TDI       Taxpayer Delinquency Investigation
                                  Challenges Remain to Balance Revenue Officer
                                  Staffing With Attrition and Workload Demands




                                               Background

The revenue officer1 (RO) position represents a mission-critical occupation because it comprises
one of the unique core competencies of the Internal Revenue Service (IRS) and has a direct
impact on the IRS’s ability to meet its mission by collecting
the appropriate amount of tax due. The Small
                                                                       The IRS hired over
Business/Self-Employed (SB/SE) Division RO hiring                   1,500 new ROs between
initiative added over 1,500 new ROs in 3 waves between           June 2009 and February 2010.
June 2009 and February 2010. This significant number of
new employees is equivalent to 38 percent of the 4,002 ROs
who were on staff before the first wave began. The addition of these new employees required
the IRS to provide them with office space and equipment2 and to assign experienced employees
to assist with their training.
As part of the Department of the Treasury’s budget request, the IRS submits a budget
justification. The budget justification gives Congress and the Office of Management and Budget
information about agency programs and budget activities, programs or projects within each
budget activity, and the requested dollar and staffing levels for each budget activity and program.
For Fiscal Year (FY) 2009, the IRS requested an approximate $45.1 million increase for
collection activity, including the RO hiring initiative.
This review was performed in the Headquarters Office, SB/SE Division, in New Carrollton,
Maryland, and the Collection Field function (CFf or Collection) offices in Phoenix, Arizona;
Baltimore, Maryland; Las Vegas, Nevada; and Richmond, Virginia, during the period June
through December 2010. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




1
    See Appendix V for a glossary of terms.
2
    Equipment includes laptop computers, wireless internet cards, camera cell phones, etc.
                                                                                             Page 1
                                Challenges Remain to Balance Revenue Officer
                                Staffing With Attrition and Workload Demands




                                       Results of Review

The Revenue Officer Hiring Initiative Was Effectively Implemented
The methodology to assign and place the new ROs in Collection areas with the greatest need was
effective. Specifically, the assignment of the new ROs to each of the seven Collection areas was
based on the following criteria:
      •   High- and medium-risk Queue entities.
      •   Potential attrition as of December 2009.
      •   Number of Form 10403 filings from Tax Years 2003–2006.
      •   Normalized productivity.
      •   National Quality Rating System quality score as of June 2009.
The hiring initiative also included a 6 percent over-hire authority to account for those individuals
who were offered a position but resigned4 before their reporting date. Figure 1 shows the total
geographical distribution of the three hiring waves.
              Figure 1: Distribution of the New ROs for Each Collection Area5




    Source: Our analysis of hiring initiative RO area allocation documents.


3
  U.S. Individual Income Tax Return.
4
  New ROs sometimes resign their position after accepting it or during the training before their report date.
5
  See Appendix IV for a list of States within each Collection area.
                                                                                                                Page 2
                              Challenges Remain to Balance Revenue Officer
                              Staffing With Attrition and Workload Demands



The Area Directors had overall responsibility for assigning new ROs to specific Collection field
offices. The Area Directors based assignments on such factors as work demands, span of
control, availability of On-the-Job Training (OJT) instructors, and work space.
During Phase I of their OJT, new ROs are assigned their first collection inventories. The
suggested inventory of cases for a new RO ranges from 25 to 40 individual and business
taxpayers. We reviewed Collection target inventory reports (September 30, 2009; December 31,
2009; and June 30, 2010) for the periods that coincided with OJT Phase I for each hiring wave.
We determined that 1,378 (over 90 percent) of the 1,515 new ROs had been assigned an
inventory in the 25 to 40 taxpayer range. For the 137 ROs with an inventory below the target
level, 49 (36 percent) had valid adjustments6 that lowered their inventory.

The Collection field offices were prepared to receive new ROs
To determine whether the gaining Collection field offices were prepared and provided support
for the hiring initiative, we judgmentally selected four field offices that were assigned new RO
hires during the three hiring waves. We selected 2 field offices at the higher end (30 or more
new RO hires) and 2 in the middle range (8-10 new RO hires):
    •   Phoenix, Arizona (38 new ROs).
    •   Las Vegas, Nevada (30 new ROs).
    •   Baltimore, Maryland (8 new ROs).
    •   Richmond, Virginia (8 new ROs).
We interviewed 4 Territory Managers in each field office and 11 Group Managers within those
territories. All of the interviewed Territory and Group Managers indicated that:
    •   Adequate office space and equipment for the new RO hires was provided prior to their
        reporting date.
    •   Available case work was sufficient to assist in the training of the new RO hires to
        complement their completion of the OJT phases.
The Territory Managers also stated that all of the OJT instructors were volunteers who were
subjected to an informal interview and selection process. The opportunity to apply for the OJT
instructor positions was provided in advance of the RO hiring, which allowed adequate lead time
for the OJT instructors to close out their inventories or return cases to the Queue.




6
 Inventory levels for ROs may be adjusted for a variety of reasons such as temporary assignments, assignment of
collateral duties, etc.
                                                                                                          Page 3
                              Challenges Remain to Balance Revenue Officer
                              Staffing With Attrition and Workload Demands



Challenges Remain for Staffing to Keep Pace With Attrition and
Workload
Prior to the RO hiring initiative, the number of ROs who were assigned cases7 decreased from
3,779 in FY 2004 to 3,613 in FY 2008 (4 percent). Although the hiring initiative helped the IRS
increase the number of ROs who were assigned delinquent cases to 4,068 in FY 2010 (13 percent
increase), maintaining RO staffing levels to adequately address available workload remains a
challenge because:
    •   Hiring has not kept pace with attrition.
    •   The number of ROs needed is not known.

Hiring has not kept pace with attrition
The Collection function expects to lose ROs as fast as it can replace them due to attrition.8
Although the hiring initiative added 1,515 ROs, the net gain in ROs assigned delinquent tax
cases as of the end of FY 2010 was only 580 ROs. Over 24 percent of the 4,002 ROs on staff9
before the hiring initiative began were lost to attrition during this period. Also, according to
Collection’s most recent estimates, planned hiring in FYs 2011 and 2012 will barely cover
estimated attrition losses. With expected attrition losses of 584 and 600 ROs in FYs 2011 and
2012, respectively, a net gain of 127 ROs is forecasted for the end of FY 2012.
Meanwhile, available workload for Collection continues to increase. A study conducted by an
outside vendor, SB/SE Collection Workforce Plan: Focus on Revenue Officers (June 2009),
concluded that the existing workforce will face significant pressures in the coming years from
increasing workload and the attrition of new hires. Collection managers agreed with the study’s
three main RO staffing challenges:
    •   Workload. Inventory appears to be outpacing the workforces’ capacity to close cases.
        Despite closing delinquent tax accounts at higher rates since FY 2005, the percentage of
        the delinquent tax accounts closed has steadily decreased because of increases in new
        accounts.
    •   New-Hire Attrition. Since FY 2005, the average RO new-hire resignation rate has been
        8.3 percent, which is higher than the rest of the RO workforce.
    •   Retirement. Retirements accounted for almost two-thirds of RO attritions over the last
        3 years. More than half of the Collection RO workforce and 79 percent of its supervisors


7
  The number of Collection Field function ROs assigned delinquent cases at the end of each fiscal year. Some ROs
are not assigned cases because they are involved in collateral duties such as training or other assignments.
8
  Retirements, resignations, etc.
9
  This includes ROs who were not assigned delinquent cases.
                                                                                                         Page 4
                            Challenges Remain to Balance Revenue Officer
                            Staffing With Attrition and Workload Demands



        have 20 or more years of service with the IRS. Since FY 2006, the percentage of ROs
        who are retirement eligible has been steadily increasing, and more than 60 percent of
        ROs retired during their first year of eligibility.
Further, the volume of available workload depends, in part, on taxpayer behavior as well as
economic and societal issues not within the IRS’s control. Accordingly, the study states that the
number of balance-due accounts may continue to rise due to the current state of the economy and
historical trends.

The number of ROs needed is not known
According to the Office of Personnel Management,10 an effective workforce plan includes
identifying the human capital required to meet organizational goals, conducting analysis to
identify competency gaps, developing strategies to address human capital needs and close
competency gaps, and ensuring the organization is appropriately structured. An agency should
approach workforce planning strategically and in an explicit, documented manner. The
workforce plan should link directly to the agency’s strategic and annual performance plans and
be used to make decisions about structuring and deploying the workforce. One key element of
workforce planning requires a workload analysis to determine the size of the workforce needed
to meet organizational goals and to identify gaps between current and future workforce needs.
However, when estimating staffing levels of ROs needed in future years, the IRS does not
determine the number of ROs needed to address the available workload. Instead, the level is
estimated based primarily on a budget figure provided by the IRS Chief Financial Officer.
Collection believes that there is more than enough Taxpayer Delinquent Account (TDA)
inventory in the Queue to justify any staffing increases. Figure 2 shows TDA receipts by the
CFf and the number of TDAs assigned to ROs from FY 2005 to FY 2010.




10
  The Office of Personnel Management Human Capital Assessment and Accountability Framework Resource
Center – Workforce Planning (Strategic Alignment System), September 2005.
                                                                                                  Page 5
                            Challenges Remain to Balance Revenue Officer
                            Staffing With Attrition and Workload Demands



              Figure 2: Gap Between TDA Receipts and TDAs Assigned,
                Including TDAs Assigned as a Percentage of Receipts




       Source: Our analysis of Collection Report 5000-2.

Although more TDAs are being closed each year, the number of unassigned TDAs at the end of
each fiscal year has also increased. With the exception of FY 2006, only 54 to 63 percent TDA
receipts were assigned to ROs each year. This shows that there are cases that could be worked if
there were more ROs available. However, the priority and potential collectability of the
inventory is not known.
RO inventory is systemically prioritized using risk-based criteria prior to assignment by the
Group Manager. In general, because the IRS is investing resources to resolve cases assigned to
ROs, the highest priority cases are assigned first, and lower priority cases are assigned if
resources are available. At some point, the productivity of these cases could be less than the
additional resources needed to resolve them because a greater number of lower priority cases will
be assigned. However, the IRS does not know when it would no longer be productive to hire
additional ROs to work the additional inventory that would be assigned.
An effective workforce plan is an essential tool to identify appropriate workload staffing levels
and justify budget allocations so that organizations can meet their objectives. However, the
Federal budget process does not require an agency to request staffing based on workload.
Instead, the IRS provides budget requests to Congress in initiatives that show how they will use
their resources and the estimated potential return on investment. Consequently, the


                                                                                           Page 6
                          Challenges Remain to Balance Revenue Officer
                          Staffing With Attrition and Workload Demands



SB/SE Division’s staffing requirements are based on budgetary considerations, not workload
such as RO inventory.
Determining the optimal level of RO staffing to work the potentially collectible inventory can
provide valuable information to the IRS. For example, the IRS’s FY 2009 budget submission
states that additional staffing would increase coverage of potentially collectible inventory, which
is an obvious assumption. It would be more meaningful to compare the total number of ROs
needed with the actual number of ROs on staff when requesting additional resources. This
information could also be useful for projecting future inventory levels that may not be worked
due to insufficient resources. Without effective workforce planning, IRS decisions regarding the
size and allocation of ROs could result in arbitrary and subjective resource actions, which may
have negative effects on IRS programs and services.

Recommendation
Recommendation 1: The Director, Enterprise Collection Strategy, SB/SE Division, should
establish rules for optimizing staffing levels for ROs to address Collection’s potentially
collectible inventory.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Enterprise Collection Strategy, SB/SE Division will engage key subject matter
       and technical experts from across the IRS to review Collection workload and resource
       levels to improve future resource allocation and staffing decisions across multiple
       Collection programs and mission-critical occupations.

Budget Justification Performance Goals Are Not Tracked to Actual
Performance Results
The IRS’s FY 2009 Budget represented an increase of $469.1 million (4.3 percent) over the
FY 2008 enacted level. To justify the funding increase, the IRS estimated the SB/SE Division
would generate $2 billion in additional annual enforcement revenue once the new hires reached
full potential in FY 2011. In his budget testimony before the House Ways and Means
Committee, the IRS Commissioner stated, “These new employees would give the IRS the
flexibility to make assignments based on the areas of greatest need.” The budget included
approximately $45.1 million for the IRS to increase collection efforts, including the RO hiring
initiative. Figure 3 shows the expected impact of the additional ROs on the TDA and Taxpayer
Delinquency Investigation (TDI) closures, as well as revenue.




                                                                                            Page 7
                               Challenges Remain to Balance Revenue Officer
                               Staffing With Attrition and Workload Demands



     Figure 3: Predicted Impact That New ROs Would Have on Collection Inventory

                      Taxpayer Delinquent Accounts                 Taxpayer Delinquent Investigations
       FY 2009 • 42,000 increase in closed cases                   • 1,900 increase in closed cases
       FY 2011 • 88,000 increase in closed cases                   • 3,000 increase in closed cases
                   • $333.6 million increase in revenue
      Source: IRS’s FY 2009 Budget Justification

However, the IRS does not track or provide Congress and other stakeholders with a comparison
of actual results to the original projections in the years following the budget’s implementation.
Specifically, the IRS’s FY 2010 budget justification did not provide Congress with information
comparing the FY 2009 projected TDA or TDI closures and revenue with actual closures and
revenue (performance results). Instead, the IRS’s FY 2010 budget justification again emphasizes
areas where the IRS needed funding for new initiatives.
Using Collection Reports 5000-02, we compared TDAs closed by ROs during FY 2008 with
those closed during FY 2009. The FY 2009 budget justification projected an additional
42,000 TDAs would be closed in FY 2009; however an additional 47,382 TDAs11 were actually
closed, representing 5,382 more TDAs closed than were projected. However, the information in
this report is not detailed enough to determine the specific impact of the new ROs on the
FY 2009 TDA closures.
Comparing projected revenue, benefits, or savings to actual revenue, benefits, or savings is
consistent with the concept of internal control standards as well as guidance from the Office of
Management and Budget, the Government Accountability Office (GAO), and the Government
Performance and Results Act of 1993.12 Specifically, Office of Management and Budget
Circular A-9413 Guidelines and Discount Rates for Benefit-Cost Analysis of Federal Programs
says:
          Retrospective studies to determine whether anticipated benefits and costs have
          been realized are potentially valuable. Such studies can be used to determine
          necessary corrections in existing programs, and to improve future estimates of
          benefits and costs in these programs or related ones. Agencies should have a
          plan for periodic, results-oriented evaluation of program effectiveness. They
          should also discuss the results of relevant evaluation studies when proposing
          reauthorizations or increased program funding.


11
   The ROs closed 1,201,473 TDAs during FY 2008 compared with 1,248,855 TDAs during FY 2009.
12
   Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
13
   Office of Management and Budget Circular A-94, Revised October 29, 1992.
                                                                                                              Page 8
                          Challenges Remain to Balance Revenue Officer
                          Staffing With Attrition and Workload Demands



Also, the Standards for Internal Controls in the Federal Government provides for reviews by
management at the functional or activity level. Specifically, managers need to compare actual
performance to planned or expected results throughout the organization and analyze significant
differences. Without understanding the discrepancies between projected and actual revenue, the
IRS has less information to improve the accuracy of future projections.
In addition, the SB/SE Division Strategy and Finance FY 2011 Program Letter reemphasizes
increased transparency related to budget formulation and initiative development. Budget
transparency would include providing Congress with information comparing projected revenue
to actual revenue in the year following the budget’s implementation.
A comparison of actual results with projected results is not a condition for approval of the annual
budget. Accordingly, Collection does not collect the information used to compare the actual
performance of the newly hired ROs with the projected performance in the budget justification.
Although it may not be needed in the budget process, information about achieving expected
goals is a valuable business tool. Without data on actual increased revenue collected, Congress
and other stakeholders do not know whether the IRS realized all or part of the $333.6 million in
additional revenue projected in its FY 2009 budget justification. Further, Collection is not in a
position to provide the data necessary to ensure transparency in budget formulation and initiative
development or to collect and analyze information that could help improve future budget
justifications.

Recommendation
Recommendation 2: The Director, Collection, SB/SE Division, should develop methods to
compile the data necessary to track actual performance results with projected performance results
to improve future budget justifications.
       Management’s Response: IRS management stated that they are already working
       with the GAO to develop a methodology to determine actual revenue collected from
       specific enforcement initiatives recommended in FY 2009 as a result of their review of
       the FY 2010 Budget Request. The IRS will share its methodology with us as it
       progresses.
       Office of Audit Comment: In their response, IRS management stated that they
       initiated efforts last year to determine actual revenue collected from specific enforcement
       initiatives proposed in FY 2009. However, IRS officials did not share these plans with us
       during our review. As a result, we did not assess whether these efforts address the
       recommendation. However, we are concerned because the IRS’s corrective action did
       not include either an implementation date or a corrective action plan.




                                                                                            Page 9
                                 Challenges Remain to Balance Revenue Officer
                                 Staffing With Attrition and Workload Demands



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the Collection function, SB/SE Division,
effectively implemented the FYs 2009 and 2010 RO1 hiring initiative. Specifically, we:
I.         Assessed the planning and preparation by the Collection function for the hiring initiative.
           A. Reviewed documentation supporting the hiring initiative funding request.
           B. Assessed the method used to determine the hiring level of ROs as part of the hiring
              initiative.
           C. Assessed the method used to allocate the ROs hired and determined whether they
              were strategically assigned (i.e., to offices with the greatest needs).
II.        Analyzed selected Collection Target Inventory Reports from May 31, 2009, through
           September 30, 2010, and determined whether the target inventory levels were met for the
           new ROs.
III.       Interviewed the Territory Managers and Group Managers for the four Collection field
           offices selected for review.
           A. Evaluated the adequacy of office space and equipment (computers, wireless cards,
              phone lines, cell phones, etc.) needs for new RO hires in the selected field offices.
           B. Evaluated the adequacy and availability of training and live case work provided to
              new RO hires.
IV.        Determined the impact of the hiring initiative on future staffing levels and resource costs
           by identifying the planned level of RO staffing for FY2010 to FY2012 and assessing
           Collection’s plan to maintain these levels.
Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objectives: SB/SE Division Collection
function policies, procedures, and practices for maintaining appropriate inventory levels for ROs,


1
    See Appendix V for a glossary of terms.
                                                                                               Page 10
                         Challenges Remain to Balance Revenue Officer
                         Staffing With Attrition and Workload Demands



assigning ROs to field offices, establishing training classes for new ROs, and assigning
experienced ROs as OJT instructors. We evaluated these controls by reviewing Collection target
inventory reports, the methodology used to assign new ROs, RO training class schedules, and the
methodology used to assign OJT instructors.




                                                                                       Page 11
                        Challenges Remain to Balance Revenue Officer
                        Staffing With Attrition and Workload Demands



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Timothy F. Greiner, Audit Manager
Michael J. Della Ripa, Lead Auditor
Doris Cervantes, Senior Auditor
Frank Maletta, Auditor




                                                                                      Page 12
                        Challenges Remain to Balance Revenue Officer
                        Staffing With Attrition and Workload Demands



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
IRS Human Capital Officer OS:HC
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:ECS
Director, Talent, Hiring, and Recruitment OS:HC:THR
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Commissioner, Small Business/Self-Employed Division SE:S
   IRS Human Capital Officer OS:HC




                                                                                    Page 13
                  Challenges Remain to Balance Revenue Officer
                  Staffing With Attrition and Workload Demands



                                                                       Appendix IV

             States Within Each Collection Area

 Collection
                                     States Covered
   Area
                  Connecticut, Maine, Massachusetts, New Hampshire,
North Atlantic
                  New York, Rhode Island, Vermont, and International

                  Kentucky, Michigan, New Jersey, Ohio, Pennsylvania, and
Central
                  West Virginia

                  Delaware, Florida, Maryland, North Carolina, South Carolina,
South Atlantic
                  and Virginia

                  Illinois, Indiana, Iowa, Kansas, Minnesota, Missouri, Nebraska,
Midwest
                  North Dakota, South Dakota, and Wisconsin

                  Alabama, Arkansas, Georgia, Louisiana, Mississippi, Oklahoma,
Gulf States
                  Tennessee, and Texas

                  Alaska, Arizona, Colorado, Hawaii, Idaho, Montana, Nevada,
Western
                  New Mexico, Oregon, Utah, Washington, and Wyoming

California        California




                                                                                 Page 14
                           Challenges Remain to Balance Revenue Officer
                           Staffing With Attrition and Workload Demands



                                                                                    Appendix V

                                 Glossary of Terms

Area Director – The senior-level manager in the CFf chain of command (i.e., the Group
Manager reports to Territory Manager, who reports to the Area Director).
Area Office – A geographic organizational level used by IRS business units and offices to help
its specific types of taxpayers understand and comply with tax laws and issues.
Balance-Due Account – A balance-due account occurs when the taxpayer has an outstanding
liability for taxes, penalties, and/or interest.
Budget Justification – For any given fiscal year, the budget request is submitted to the IRS
Oversight Board, the Department of the Treasury, the Office of Management and Budget, and
Congress, which is referred to as the Congressional Justification. Revisions are made to the
budget request throughout this process based on approved funding levels from these external
entities prior to the final Congressional Justification.
Case – A Collection case refers to one taxpayer, but can include multiple tax modules (specific
tax return filed by the taxpayer for one specific tax period, year, or quarter and type of tax) for
that taxpayer.
Chief Financial Officer – Serves as the principal advisor to the IRS Commissioner and Deputy
Commissioners on financial and performance management, financial systems, strategic planning,
and internal controls.
Collection Area – Seven geographic regions across the country (California, Central, Gulf States,
Midwest, North Atlantic, South Atlantic, and Western). Each is headed by an Area Director who
is the responsible official for all collection operations within the designated areas.
Collection Field Function – The unit in the Area Offices consisting of ROs who handle personal
contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Collection Field Offices – Local offices where ROs are assigned.
Collection Report 5000-2 – Collection Activity Report, NO-5000 – Taxpayer Delinquent Account
Cumulative Report. This report provides Collection activity information from the beginning of
the fiscal year through the end of the current reporting month.
Collection Target Inventory Reports – Target inventory levels were implemented to establish
consistent inventory levels for ROs nationwide. Group managers are responsible for monitoring
inventory levels to ensure each RO has an appropriate number of cases within the established
ranges. These levels are reflected on target inventory reports (by group).

                                                                                             Page 15
                          Challenges Remain to Balance Revenue Officer
                          Staffing With Attrition and Workload Demands



Core Competencies – The fundamental knowledge, ability, or expertise in a specific area or skill
set that allows that an organization or individual to compete with its competitors.
Enforcement Revenue – Any tax, penalty, or interest received from a taxpayer as a result of an
IRS enforcement action (usually an examination or a collection action).
Group Manager – A first-level manager in Collection, responsible for supervision of an RO
group.
Hiring Wave – The IRS hired 568 ROs in June 2009, 568 ROs in August 2009, and 379 ROs in
February 2010.
Initiative Hires – Those positions that are associated with the IRS initiative targeted to improve
reporting, filing, or payment compliance.
IRS Data Book – Provides information on activities conducted by the IRS, such as taxes
collected, enforcement, taxpayer assistance, budget, workforce, and other selected activities.
On-the-Job Training Instructor – A senior RO, selected to provide instruction and training to
an assigned new-hire RO within a specific group.
On-the-Job Training – The initial 40-week training period for a new RO, divided into phases
one and two. During this OJT, an RO reports to, and works under, the guidance of an assigned
OJT instructor.
Potentially Collectible Inventory – The total inventory having the most potential for applying
intervention techniques and collection resources, including reactivating those modules that
collection closed due to lack of resources.
Queue – An automated holding file for unassigned inventory of delinquent cases for which the
Collection function does not have enough resources to immediately assign for contact.
Return on Investment – The net profit or loss in an accounting period divided by the capital
investment used during the period, usually expressed as an annual percentage return.
Revenue Officer – Employees in the CFf who attempt to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses or the
Automated Collection System.
Tax Period – Refers to each tax return filed by the taxpayer for a specific period (year or
quarter) during a calendar year for each type of tax.
Taxpayer Delinquency Investigation – An unfiled tax return for a taxpayer. One TDI exists for
all tax periods.
Taxpayer Delinquent Account – A balance-due account of a taxpayer. A separate TDA exists for
each tax period.


                                                                                              Page 16
                         Challenges Remain to Balance Revenue Officer
                         Staffing With Attrition and Workload Demands



Territory Manager – A second-level manager in the Collection function, responsible for
supervision of Group Managers within a specific geographic territory.




                                                                                     Page 17
         Challenges Remain to Balance Revenue Officer
         Staffing With Attrition and Workload Demands



                                                 Appendix VI

Management’s Response to the Draft Report




                                                        Page 18
Challenges Remain to Balance Revenue Officer
Staffing With Attrition and Workload Demands




                                               Page 19
Challenges Remain to Balance Revenue Officer
Staffing With Attrition and Workload Demands




                                               Page 20
